                                 Office of Inspector General
                                                              July 2013

Business Loans                               grams receiving federal funds, and one       Two Ohio Men Sentenced and
                                             count of aggravated identity theft. The      Ordered to Pay Joint Restitution of
                                             woman’s business was a participant in
Maryland Woman Sentenced to                                                               $1,715,650
                                             the SBA Microloan program, which
51 Months and Forfeits $11,832,000
                                             partners with local intermediary com-
                                                                                          In July 2013, two Ohio men were sen-
                                             panies that specialize in providing train-
On July 9, 2013, a Maryland woman was                                                     tenced for their roles in a fraudulent
                                             ing and “small” loans to local small busi-
sentenced to 51 months in prison,                                                         scheme related to an SBA-guaranteed
                                             nesses. In this partnership, the SBA
36 months supervised release, restitu-                                                    loan. The first man was sentenced to
                                             provides larger loans to the intermedi-
tion of $3,593,432, and a criminal forfei-                                                one-day incarceration, three years su-
                                             aries who in turn make smaller loans
ture of $11,832,000. The sentencing was                                                   pervised release, $1,715,650 restitution,
                                             (maximum of $50,000) to the small
subsequent to her guilty plea to one                                                      and 100 hours community service. He
                                             businesses. The woman’s business was
count of conspiracy to commit bank                                                        was also ordered to pay $400 in court
                                             one of these local intermediary compa-
fraud and one count of money launder-                                                     costs. The second man was sentenced
                                             nies.
ing. The woman was an attorney in Vir-                                                    to three years’ probation and joint resti-
ginia, and the owner/operator of a title                                                  tution of $1,715,650. He was also or-
                                             The indictment alleges that the woman
company, also located in Virginia. The                                                    dered to pay a special assessment of
                                             provided escrow agreements with
woman met a man and his brother who                                                       $400. Both men were indicted on De-
                                             forged signatures and notary seals, as
were owners of a loan brokerage compa-                                                    cember 13, 2011, in connection with
                                             well as false bank statements, to the
ny. Over the course of her relationship                                                   their fraudulent activities involving a
                                             SBA. The SBA then made two loans to
with the men, the woman agreed to use                                                     $1,715,600 SBA-guaranteed loan. The
                                             her business in the amounts of
her settlement company and law firm to                                                    indictment charged that the men provid-
                                             $200,000 and $550,000. Only $192,500
facilitate loan closings for deals that                                                   ed false and fictitious loan application
                                             of the second loan was disbursed. Then
would have otherwise failed to meet the                                                   documents, invoices, and additional sup-
                                             the woman allegedly submitted false
lending parameters of the banks making                                                    porting documents to a bank and the
                                             information indicating that her busi-
the loans, including banks authorized to                                                  SBA in order to secure the SBA-
                                             ness, an intermediary company, made
lend under SBA’s Section 7(a) program.                                                    guaranteed loan. This is a joint investi-
                                             21 local small loans using the SBA loan
She further helped the men misrepre-                                                      gation with the FBI.
                                             proceeds. In truth, the firm only pro-
sent to the banks and to the SBA the true    vided a total of $25,000 to two busi-
amount of money involved in the trans-       nesses: one that she owned and one           Government Contracting
actions and/or the true names of the         controlled by her boyfriend. Of the
parties taking part in the transactions.     $392,500 that was disbursed to her           Former Corps of Engineer Employee
The fraudulent documentation overstat-       company, about $362,000 was trans-           Sentenced to 235 Months and Ordered
ed the net worth and equity injection        ferred to a bank account of another          to Pay $32,553,253in Restitution
amounts of the borrowers to enhance          company that she incorporated and
their creditworthiness. This is a joint      controlled. The woman then used
investigation with the Federal Bureau of                                                  On July 11, 2013, a former program
                                             these SBA loan proceeds to purchase an       manager, U.S. Army Corps of Engineers
Investigation (FBI) and the United States    apartment building in Tallahassee, Flori-
Postal Inspection Service.                                                                (USACE), was sentenced in U.S. District
                                             da. This is a joint investigation with the   Court, District of Columbia, to 235
                                             Internal Revenue Service-Criminal In-        months in prison, 36 months of super-
Florida Woman Indicted on Fraud,             vestigation Division (IRS-CI).               vised release, and joint restitution of
Theft and Aggravated Identity Theft                                                       nearly $32,553,253. Additionally, he
                                                                ***                       was ordered to forfeit $11,082,687 and
On July 10, 2013, a Florida woman was                                                     specific property as set forth in the plea
indicted on five counts of wire fraud, one                                                agreement. On May 17, 2012, the for-
count of theft or bribery concerning pro-
                                                                                                                               Page 2

mer program officer pled            On July 18, 2013, a re-       nautics and Space Admin-          Restaurant Owner Pleads
guilty to bribery of a public        gional director of the        istration OIG, DCIS, and the      Guilty to Misapplication of
official and conspiracy to           Federal Protective Ser-       Department of Homeland            Bank Funds
commit money laundering.             vice, U.S. Department of      Security OIG.
The investigation revealed           Homeland           Security
that he had received and ac-         (DHS), was sentenced to       Former President of               On July 22, 2013, a man pled
cepted things of value, per-         15 months in prison, 12       Wisconsin Bank Indicted on        guilty in Missouri to a super-
sonally and for other persons,       months supervised re-         18 Counts of Fraud                seding information, filed the
from at least three firms—           lease,     forfeiture    of                                     same day, charging him with
and others—in return for             $12,500, and a special                                          one count of aiding and
funding and approving con-                                         On June 18, 2013, the former      abetting the misapplication of
                                     assessment fee of $100.
tracts. Additionally, he pro-                                      president of a Wisconsin bank     bank funds. The man was the
                                     He previously pled guilty
vided preferential treatment                                       was indicted on 18 counts of      owner and operator of a fast
                                     to one count of conspira-
to these contractors and sub-                                      bank fraud. The investigation     food restaurant in Missouri.
                                     cy to commit bribery.
contractors for contracts                                          disclosed that in late 2010,      In 2005, he moved to North
                                     The former director had
awarded and pending award                                          the man became aware that         Carolina where he managed
                                     entered into an agree-
through the USACE. The pay-                                        one of the bank’s commercial      another fast food restaurant.
                                     ment whereby he would
ments received by and prom-                                        customers and its principles      He did not play any role in
                                     be paid $50,000 annually
ised to the former program                                         had reached their maximum         the daily affairs of the Mis-
                                     to assist the second firm
manager directly or indirect-                                      borrowing limits. The chair-      souri business.      In March
                                     in obtaining DHS con-
ly, totaled in excess of $30                                       man of the bank ordered the       2006, he obtained a $1.6 mil-
                                     tracts; however, he was
million. In addition, the in-                                      former president not to ap-       lion SBA loan through a Mis-
                                     only paid $12,500 before
vestigation revealed his role                                      prove any further loans for       souri bank to use as working
                                     the scheme was discov-
in the planned steering of a                                       this customer. In order to        capital and to pay outstand-
                                     ered.
government contract, with an                                       provide additional funds to       ing debts of the Missouri res-
intended value at near $1           On June 19, 2013, the         this commercial customer,         taurant. Once the funds were
billion, to a specific firm.         former president of one       however, the man allegedly        disbursed, he aided and
This is a joint investigation        of the firms was sen-         withdrew funds from ac-           abetted a former executive of
with the FBI, the IRS-CI, U.S.       tenced to 24 months in        counts held by unrelated          the bank, and others, to mis-
Army Criminal Investigation          prison, 24 months super-      commercial customers with-        apply $91,100 of the SBA loan
Division, and the Defense            vised release, forfeiture     out their knowledge or con-       proceeds to benefit third par-
Criminal Investigative Service       of nearly $234,351, and a     sent and deposited them into      ties not related to his Mis-
(DCIS).                              $100 special assessment       accounts for the benefit of       souri business. The man is
                                     fee. He previously pled       the aforementioned commer-        one of 18 individuals charged
Three Individuals Sentenced          guilty to one count of        cial customer. The funds          in a complex conspiracy to
in VA for $31 Million                major fraud against the       withdrawn totaled approxi-        defraud the bank and the
8(a) Program Fraud Scheme            government.                   mately $250,000, including        SBA. To date, 12 of the 18
                                                                   $72,000 in SBA loan funds.        defendants       have      pled
                                    On July 26, 2013, the
Three individuals were sen-                                        The indictment also alleges       guilty. This is a joint investi-
                                     former director of one of
tenced in the Eastern District                                     that former president made        gation with the FBI.
                                     the firms was sentenced
of Virginia in connection with                                     notations falsely indicating
                                     to 24 months of proba-
fraudulently obtaining over                                        the customers whose ac-                         ***
                                     tion and a special assess-
$31 million in 8(a) and small                                      counts were the subject of
                                     ment fee of $100. He
business set-aside contracts.                                      the withdrawals had author-
                                     previously pled guilty to
The investigation disclosed a                                      ized the transactions. One of       Many OIG reports can be
                                     one count of false state-
scheme in which two Virginia                                       the accounts with unauthor-         found on the OIG’s web-
                                     ments to the SBA for his
businesses falsely represent-                                      ized withdrawals contained
                                     role in submitting a false                                                   site
ed to the government that                                          SBA loan funds. This is a joint
                                     8(a) application to the                                             http://www.sba.gov/
the second firm was eligible                                       investigation with the FBI and
                                     SBA.                                                                 office-of-inspector-
for the 8(a) program when, in                                      the Federal Deposit Insurance
fact, it was operated and con-   This is a joint investigation     Corporation OIG.                             general
trolled by the first business.   with the U.S. National Aero-
                                                                                                                               Page 3


Agency Management
On July 2, 2013, the OIG issued Evaluation Report 13-17, The OIG’s Portfolio Risk Management Program Can be Strengthened.
This evaluation report presents the results of the OIG’s analysis of the SBA’s 7(a) loan portfolio data. The evaluation was designed
to identify high-risk audit areas and identify loan program, portfolio, and data reliability issues warranting attention by the Agen-
cy. The OIG determined that the SBA had not implemented a program or process to effectively monitor risk in its loan portfolio.
The OIG’s limited analysis identified three high-volume franchises with historical default rates of at least 46-percent, default val-
ues over 38-percent, and loss rates over 18-percent. Further, the OIG determined that over the 2002-2009 period reviewed, the
Agency disbursed nearly 1,000 loans to these three franchises, totaling $199 million. Of these loans, 501, representing $84 million
in Agency guaranties, defaulted. The OIG also identified five high-volume retail industries with historical default rates of at least
40-percent, default values over 30-percent, and loss rates over 16-percent. The OIG determined that over a seven-year period
from 2002 to 2009, loans to these five industries resulted in 4,415 defaults and approximately $150 million in SBA charge-offs.

According to SBA officials, the Agency had not implemented a program or process to monitor risk in its portfolio because the SBA
had traditionally focused on loan approval volume and loss rates to evaluate program performance with risk being assessed at
the lender level. The OIG recommended three actions that will help strengthen the SBA’s portfolio risk management program.
The Agency has recently taken steps towards establishing a program that will monitor portfolio risk, and where necessary, ad-
dress the types of portfolio risks identified in the evaluation.

                                                                ***



                                                 Office of Inspector General
                                                     Peggy E. Gustafson
                                                      Inspector General
                                                              ***
                            If you are aware of suspected waste, fraud, or abuse in any SBA program,
                                                    please report it online at:
                                      http://www.sba.gov/office-of-inspector-general/2662

                                        Or call the OIG Hotline toll-free, at (800) 767-0385

                         We welcome your comments concerning this update or other OIG publications.
                                 To obtain copies of these documents please contact us at:

                                                             SBA OIG
                                                       409 Third Street SW,
                                                            7th Floor
                                                      Washington, DC 20416
                                                       E-mail: oig@sba.gov
                                                    Telephone: (202) 205-6586
                                                       FAX (202) 205-7382
